    April 6, 2005




Financial Management
Independent Examination of the
Land Assets at the U.S. Army Corps
of Engineers, Civil Works
(D-2005-051)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
CEFMS                 Corps of Engineers Financial Management System
DoD OIG               Department of Defense Office of Inspector General
PP&E                  Property, Plant, and Equipment
REMIS                 Real Estate Management Information System
USACE                 United States Army Corps of Engineers, Civil Works
               Department of Defense Office of Inspector General
Report No. D-2005-0051                                                       April 6, 2005
   (Project No. D2004-D000FH-0036)

             Independent Examination of the Land Assets at the
                U.S. Army Corps of Engineers, Civil Works

                                 Executive Summary

Who Should Read This Report and Why? Financial and real property managers at the
U.S. Army Corps of Engineers, Civil Works (USACE) should read this report. It
discusses the need for consistent policies and procedures for accounting for USACE land
assets and a subsidiary ledger to support the general ledger account balances.

Background. General Property, Plant, and Equipment is one of the largest categories of
assets reported on the USACE FY 2004 Financial Statements. We examined the USACE
business processes during FYs 2002 through 2004. USACE reported $8.6 billion in land
assets—30 percent of the $28.4 billion in net assets for General Property, Plant, and
Equipment reported on its September 30, 2004 balance sheet. Prior USACE financial
statement audits have resulted in disclaimers of opinion because of material deficiencies
in the financial statements and supporting documentation.

Results. We performed this examination to verify the reliability of the land assets as
presented in the USACE FY 2004 Financial Statements. USACE agreed that we would
perform the procedures to support the establishment of beginning balances for the audit
of the Principal USACE Financial Statements for the Fiscal Years Ending September 30,
2004 and 2003.

We could not validate the ending balance of $8.6 billion in land assets reported on the
FY 2004 Financial Statements despite available documentation to support USACE
ownership of the land assets. Based on our FY 2002 sample results, USACE could not
provide supporting documentation on $1.78 billion of the $2.35 billion (76 percent) that
represented administrative cost. Further, the remaining costs that made up the statistical
sample represented land tract cost that included unsupported costs for land tracts and
unsupported values for land assets acquired through donations. In addition, the value of
land assets may have been misstated because the ending balance included costs
associated with land tracts that were disposed of, and did not include costs of reservoirs
that were misclassified as buildings and structures. As a result, the ending balance for
land assets was not ready for substantive audit testing or audit. USACE should establish
an oversight process that provides periodic reviews of land asset transactions at the
activity level. See the Finding section of the report for detailed recommendations.

Management Comments and Audit Response. The Commander of the U.S. Army
Corps of Engineers concurred with the findings and recommendations and stated that all
corrective actions would be completed by June 30, 2005. Comments received from the
Commander U.S. Army Corps of Engineers were partially responsive, but did not address
the development of a Civil Works Headquarters oversight process to conduct periodic
Civil Works Headquarters reviews of land asset transactions. Further, comments quoted
the EC 405-1-12, Chapter 16, Appendix D and Information Paper 11 that misstated the
retention period for supporting documentation. Comments did not identify the oversight
process that will ensure specifically that each land tract is properly documented.
Comments did not recognize that a reconciliation of the supporting system and the
summary system is required to comply with generally accepted accounting principles.
Compliance with these recommendations is important to ensure that the benefits of the
auditors’ work are realized and the USACE will develop an accurate baseline for land
assets. Therefore, we request that the Commander, U.S. Army Corps of Engineers, Civil
Works provide further comments to Recommendations 1 through 5 by June 6, 2005. (See
the Finding section for a discussion of management comments and the Management
Comments section of the report for a complete text of the comments.)




                                          ii
Table of Contents

Executive Summary                             i

Background                                    1

Objectives                                    2

Finding
     Valuation of Land Assets                3

Appendixes
     A.   Scope and Methodology              13
     B.   Prior Coverage                     15
     C.   Statistical Sampling Methodology   16
     D.   Sample Results                     19
     E.   Report Distribution                22

Management Comments
     U. S. Army Corps of Engineers           25
Background
        The Department of Defense Office of Inspector General (DoD OIG) performed an
        independent examination to establish beginning balances for the audit of the
        Principal U.S. Army Corps of Engineers, Civil Works (USACE), Financial
        Statements for the Fiscal Years Ending September 30, 2004 and 2003. The
        USACE mission is to provide quality and responsive engineering services to the
        nation that include planning, designing, building and operating water resources
        and other civil works projects. In carrying out this mission USACE has acquired
        vast holdings of nearly 12 million acres of land. The USACE September 30,
        2004, Balance Sheet reported about $28.4 billion in net assets for General
        Property, Plant, and Equipment (PP&E).1 Land assets of $8.6 billion make up
        30 percent of total PP&E.

        This report discusses the need for consistent policies and procedures in
        accounting for USACE land assets. In addition, we address the need for a
        subsidiary ledger which USACE agreed to develop in response to DoD Inspector
        General Audit Report D-2004-044, “Subsidiary Ledgers at the U.S. Army Corps
        of Engineers,” January 16, 2004.

        From 1994 through 1998, each of the USACE activities implemented and
        followed a reconciliation process that provided data to convert financial records
        from the legacy Corps of Engineers Management Information System to the new
        Corps of Engineers Financial Management System (CEFMS). At that time
        CEFMS became (and remains) the financial management and accounting system
        for USACE. The Real Estate Management Information System (REMIS) is a
        database repository for land assets including information for deeds, titles, and
        rights and obligations. USACE intended to have CEFMS provide financial
        reporting for land assets with REMIS acting as the subsidiary ledger to support
        land values. However, USACE has yet to develop a complete interface between
        CEFMS and REMIS. Accounting transactions supporting USACE land assets are
        posted into CEFMS at 42 activities. The USACE Finance Center in Millington,
        Tennessee, compiles and adjusts the accounting data to generate the financial
        statements.

        In a November 21, 2003, memorandum addressed to the Director of the Defense
        Financial Auditing Service, DoD OIG auditors stated that USACE did not:

              •   provide sufficient information to evaluate management assertions
              •   verify the $8.05 billion of land assets reported in the FY 2002 financial
                  statements, and
              •   prepare financial statements in accordance with generally accepted
                  accounting principles.



1
 General Property, Plant and Equipment on the DoD financial statements refers to assets classified as
Land; Buildings, Structures, and Facilities; Leasehold Improvement: Software; General Equipment;
Military Equipment; Assets Under Capital Lease, and Construction-in-Progress.


                                                    1
        As a result, the auditors could not assess the reliability of the land assets as
        presented in the General PP&E line item for FY 2003.2 The memorandum also
        stated the objective for the FY 2004 audit work which included continuing work
        to establish the beginning balances for USACE land assets. The auditors also
        analyzed and summarized the documentation on the land tracts3 to help USACE
        resolve the documentation issue for administrative costs. This work culminated in
        a Memorandum of Agreement, “Support for Recorded Book Cost of General
        Property, Plant and Equipment Assets,” June 9, 2004, which is discussed in detail
        in the Finding section under Ongoing Actions.


Objectives
        The initial objective of the examination engagement was to determine the
        reliability of the U.S. Army Corps of Engineers, Civil Works, land assets as
        presented in the General Property, Plant, and Equipment line item in the FY 2003
        and FY 2002 comparative consolidated financial statements, and to determine
        whether the financial statements were prepared in accordance with generally
        accepted government accounting principles. We expanded the scope of this
        examination to include DoD OIG analysis and review of USACE business
        processes relative to issuing the FY 2004 and FY 2003 comparative consolidated
        financial statements. See Appendix A for a comprehensive discussion of the
        scope and methodology, and Appendix B for prior coverage related to the
        objective.




2
  “Audit of the U.S. Army Corps of Engineers, Civil Works, Land Assets as Presented in the FY 2003
Financial Statements” (D2003FH-0049).
3
  USACE uses the term, “tract” in acquisitions to identify each separate parcel requiring ownership
documentation, usually a title.


                                                   2
                 Valuation of Land Assets
                 We could not validate the $8.6 billion ending balance that USACE
                 reported on its FY 2004 financial statements despite the available
                 documentation supporting USACE ownership of the land assets. The
                 ending balance for land assets included:

                         •   unsupported administrative costs and administrative costs at
                             the property identification level that had no associated land
                             purchase costs,
                         • donated land tracts that were not assigned a fair market value
                             or were assigned an unsupported fair market value, and
                         • amounts recorded for land tracts in REMIS that were not
                             supported by appropriate documentation or that differed from
                             the documented value.
                 In addition, the value of land assets may have been misstated because the
                 ending balance included costs associated with land tracts that were
                 disposed of and did not include reservoirs that were misclassified as
                 buildings and structures.

                 These conditions occurred because USACE did not ensure implementation
                 of appropriate guidance and procedures including:

                         •    retention of documentation to support administrative costs, and
                         •    consistent application of guidance related to classification and
                              valuation of land asset costs at each of the activities.

                 In addition, USACE did not have an integrated subsidiary ledger to
                 support land assets reported on the financial statements, and did not
                 perform a manual reconciliation between financial records and real
                 property records that would have identified inconsistencies between the
                 two. As a result, USACE land assets were not ready for substantive audit
                 testing or audit.4


Substantive Testing of Land Assets
        Based on the USACE representation that land assets were ready for audit,
        DoD OIG auditors began substantive testing to validate the $8.05 billion FY 2002
        ending balance for land assets. To accomplish the testing, a statistical sample was
        drawn on $5.98 billion of the total population of $8.05 billion that existed in
        FY 2002. Because the review spanned a 2-year period, periodic updates were
        done to determine if business processes remained the same throughout the review.

4
  USACE agreed to develop subsidiary ledgers to support the general ledger account balances in the
financial statements in response to DoD Inspector General Audit Report D-2004-044, “Subsidiary Ledgers
at the U.S. Army Corps of Engineers,” January 16, 2004.


                                                  3
        Our objective was limited to establishing the beginning balances for the USACE
        FY 2003 financial statements. As such, we used the data provided by USACE for
        the land balance in the balance sheet as of September 30, 2002. In selecting the
        statistical sample for substantive testing we excluded $2.07 billion in land assets
        associated with the Power Marketing Assets, leaving $5.98 billion in land assets.
        From the $5.98 billion, we drew a statistical sample of 8,332 land tracts from the
        REMIS property accountability data base. We included administrative costs in
        the costs for land tracts. We did not perform a review of internal control for
        USACE land assets. However, we selected our substantive testing sample based
        on a control risk assessed as “High” because of DoD OIG oversight of previous
        Army Audit Agency audits and results of the work performed by the Government
        Accountability Office.

        We reviewed the valuation, completeness, rights and obligations, and existence
        assertions for our sample of property identification numbers. In performing the
        substantive testing, we reviewed historical documentation such as deeds, civil
        actions/declarations of taking, project completion reports, and various systems
        data from CEFMS and REMIS. However, we could not establish a beginning
        balance for the FY 2003 land asset line item because USACE did not provide
        either supporting documentation or estimates to support the administrative costs.5
        For example, USACE did not provide supporting documentation for about
        $1.78 billion of the $2.35 billion in administrative costs for the land sample. The
        amount of unsupported administrative costs did not allow us to determine the
        reliability of the land assets as presented in the General PP&E line item.

        The auditors then modified the audit plan and statistically tested land tracts to
        verify existence and rights. Actual cost of land tracts at activities that were part of
        the sample made up approximately $1.5 billion. We found that existing
        documentation was accurate enough to substantiate rights and obligations. To
        account for the remaining costs associated with land assets, we judgmentally
        selected and reviewed administrative costs associated with the land tracts. See
        Appendix A for complete details on the scope limitations and Appendixes C
        and D for sampling details.


Land Acquisition Costs
        We could not validate the $8.6 billion ending balance USACE reported on the
        FY 2004 financial statements. The ending balance for land assets included
        unsupported administrative costs and administrative costs at the property
        identification level that were not associated with specific land tracts. In addition,
        we identified misclassified reservoir costs; donated land tracts with unassigned or
        unsupported fair market values; deed costs that were unsupported or differed from
        the recorded value; and unrecorded disposals.



5
 Federal Auditing Standards Advisory Board (FASAB) Statement of Federal Financial Accounting
Standard (SFFAS) No. 6. “Accounting for Property, Plant, and Equipment,” June 1996 requires cost
estimates to support land values if supporting documentation is not available.


                                                  4
           The USACE line item for land assets consists primarily of costs falling into three
           categories: Land and Damages, Relocations, and Reservoirs. Land and Damages
           includes all costs directly associated with the acquisition of real property by
           purchase, condemnation, donation, or transfer. Relocations consist of costs to
           relocate roads, bridges, railroads, cemeteries, utilities, and structures. Reservoir
           costs include costs for bank stabilization; shoreline improvement; fire breaks;
           boundary line surveys and improvement; marking of land which has been
           acquired or is to be acquired; rehabilitation of natural resources; erosion control;
           and drainage, rim grouting and mine sealing to prevent leaks. The administrative
           costs referred to in this report consist of the costs associated with damages and
           relocations.

           Statement of Federal Financial Accounting Standard (SFFAS) No. 6 covers the
           accounting for property, plant, and equipment, which includes land assets.
           SFFAS No. 6 states that the cost of General Property, Plant, and Equipment, must
           include all costs incurred to bring the property to a form and location suitable for
           its intended use. The costs incurred may include amounts paid to vendors;
           transportation costs; and engineering, architectural, and other labor (direct or
           indirect) costs. SFFAS No. 6 also states that if historical cost information has not
           been maintained, estimates are required. The DoD Financial Management
           Regulation (FMR) Volume 4, chapter 6, “Property, Plant and Equipment,”
           August 2000, states that all financial transactions should be documented in the
           appropriate ledgers with the proper source documents to support the entries. The
           FMR also requires proper supporting documentation and specifically includes
           purchase invoices, sales and procurement contracts, DD Form 1354, Work Order
           Completion Reports, construction contracts, work orders, and other
           documentation generated independently from the entity.

           Administrative Costs. USACE did not retain the supporting documentation for
           administrative costs. As a result, we could not complete detailed testing planned
           for this audit and limited our review to the sample of land administrative costs.
           Of the $2.35 billion in administrative costs reviewed in our sample, about
           $1.78 billion (or 76 percent)6 was not adequately supported. USACE did not
           retain the supporting documentation required by DoD FMR, Volume 4, chapter 6.
           Appendix D, Table D-1, provides a summary of unsupported administrative costs
           for the 16 activities reviewed.

           Additionally, we found 19 property identification accounts valued at
           $31.1 million that were solely administrative costs. Because these administrative
           costs were not associated with a specific land tract and no documentation was
           available to identify what generated this cost, we could not determine if this was a
           valid cost associated with land assets.

           Land Tract Costs. Land tract costs (direct cost) made up approximately
           $2.4 billion of total land acquisition cost reported by USACE in FY 2002. The
           actual cost of land tracts in activities that were part of the sample was
           approximately $1.5 billion. USACE assigns a property identification number (ID)
           to specific projects in order to account for land assets. Although substantially


6
    This percentage relates to our actual sample results and does not generalize to the total population.


                                                         5
        compliant with assertions related to rights and existence of land assets, we did
        find issues that need additional attention. Some specific issues we identified
        follow.

             •   Classification. Corps of Engineers Chief of Staff memorandum,
                 “Reconciliation of Real Property Inventory Records with Accounting
                 General Ledger/Cost Records,” May 10, 1994, states that land and
                 damages, relocations, and reservoirs were to be combined and used as the
                 basis for the cost of land. However, in our statistical sample we identified
                 four USACE activities, Baltimore, Maryland; Fort Worth, Texas;
                 Huntington, West Virginia; and Wilmington, North Carolina, that
                 incorrectly capitalized $96.3 million in reservoirs as buildings and other
                 structures.

             •   Valuation of Donated Land. USACE inconsistently valued or did not
                 adequately support fair market value calculations for the land tracts
                 acquired through donation. SFFAS No. 6 states that the cost of General
                 PP&E acquired through donation must be recorded at the estimated fair
                 market value at the time the property is acquired by the Government.
                 Additionally, USACE Memorandum, “Real Property
                 Inventory/Reconciliation for Chief Financial Officer (CFO)
                 Responsibilities,” August 1, 1996, states that where there is limited
                 information, a reasonable, documented approach will generally satisfy the
                 audit requirements to determine an estimated value for donated real
                 property. Within the sample of 8,313 land tracts reviewed,7 540 were
                 acquired through donation. Our review showed that USACE did not
                 estimate a fair market value for 200 of the 540 donated land tracts.
                 Appendix D, Table D-2, summarizes donated land tracts by the activities
                 reviewed, and documents the inconsistencies identified at the various
                 activities.

             •   Supporting Documentation. Land tract acquisition costs in REMIS were
                 either not supported by appropriate documentation, or the amounts stated
                 on the deed differed from the value stated in REMIS. Supporting
                 documentation was not available for 486 land tracts valued in REMIS at
                 $9.8 million. For example, one district had no supporting documentation
                 for a land tract valued in REMIS at $449,179. In addition, the amount
                 USACE recorded in REMIS differed from supporting documentation for
                 590 land tracts. These differences are not material but are important
                 because they affect the beginning balance for land assets. Because some
                 errors were overstatements and others were understatements, the net effect
                 on the financial reporting was $15.9 million in errors. For example, one
                 district recorded a purchase involving two land tracts in REMIS at
                 $315,975. Supporting documentation for the purchase indicated a
                 purchase cost of $191,500—an overstatement of $124,475. This error
                 occurred because the district entered the total cost of both tracts for one
                 tract and entered the prorated cost for the other tract. Appendix D,
                 Table D-3, summarizes the potential misstatements for acquisition costs.

7
(8,332 land tracts less the 19 property IDs discussed in the Administrative Costs subsection of Land
Acquisition Costs)


                                                    6
       •   Disposals. USACE activities had unrecorded disposals of land tracts
           (whole and partial) and the related administrative costs. When a USACE
           activity disposes of land, it removes the acreage from REMIS, but retains
           the acquisition value of that land in the REMIS database. Real estate
           personnel use a manual process to notify Resource Management (financial
           staff) personnel that the land has been disposed of. Resource Management
           personnel then manually input the data into CEFMS. This was verified by
           personnel at one activity when they attributed differences between the two
           databases, CEFMS and REMIS, to unreconciled disposals of land. In
           addition, USACE management acknowledged that unrecorded disposals
           were a problem at the activity level. We did not quantify the extent to
           which disposals were unrecorded because the documentation did not
           always exist. Also, reconciliation would depend on personnel
           remembering the various projects’ histories to determine the difference.

    See Appendix D, Table D-1, for a summary of documentation errors found at
    each activity reviewed.


USACE Implementation of Policy and Procedures
    Records Retention Guidance. USACE activities had material amounts of
    unsupported administrative costs. This condition occurred because USACE
    activities followed guidance in National Archives and Records Administration,
    General Records Schedule No. 3, item 3, which requires that the routine
    procurement files related to transactions other than real property, that exceed
    $2,000, be retained until 6 years and 3 months after final payment. USACE
    management cited the 6 years and 3 month retention period as the reason for the
    lack of documentation to support administration costs. However, the activities
    misinterpreted the guidance related to retention of documentation for land
    administrative costs and applied the wrong section. USACE activities should
    have followed the more relevant guidance in National Archives and Records
    Administration, General Records Schedule No. 3, item 1, which states that
    records, other than abstracts or certificates of title, relating to real property
    acquired after December 31, 1920, are to be retained until 10 years after the
    Government’s unconditional sale or release of conditions, restrictions, mortgages,
    or other liens. Since administrative costs are capitalized as land assets falling
    under the definition of real property on the balance sheet, the costs should be
    treated as real property and therefore, the supporting documentation should be
    retained until 10 years after the sale or release of the property.

    Implementation of Guidance. We identified four activities, Baltimore,
    Maryland; Fort Worth, Texas; Huntington, West Virginia; and Wilmington,
    North Carolina where USACE incorrectly capitalized $96.3 million in reservoirs
    as buildings and other structures. One of these activities simply ignored the
    requirement, saying that capitalizing reservoir costs as part of land assets was not
    proper. Additionally, 11 of the 16 USACE activities did not revalue part or all of
    their donated tracts to a fair market value, and 10 activities did not document fair
    market value calculations for donated tracts as required by SFFAS No. 6.



                                          7
Subsidiary Ledger for Land Assets
    USACE Headquarters issued a Chief of Staff memorandum in response to a draft
    of Army Audit Agency (AAA) Report No. SR 94-481, “U.S. Army Corps of
    Engineers FY 1993 Financial Statements,” June 30, 1994. The memorandum,
    “Reconciliation of Real Property Inventory Records with Accounting General
    Ledger/Cost Records,” May 10, 1994, outlined a process for activities to reconcile
    what the Army Audit Agency reported to be $10.5 billion in differences between
    real property records and general ledger records, whose systems were not
    integrated. USACE activities were to continue to perform an annual
    reconciliation to ensure that the ledgers remained in balance until the real property
    and general ledger systems were integrated.

    From 1994 through 1998, each of the USACE activities implemented the initial
    reconciliation process before converting financial records from the Corps of
    Engineers Management Information System to CEFMS. At that time CEFMS
    became (and remains) the financial management and accounting system for
    USACE. USACE intended to integrate CEFMS with REMIS to create a control
    ledger-subsidiary ledger account relationship for real property accounts in
    response to the 1994 Army Audit Agency report. Until this was achieved,
    USACE implemented a manual reconciliation process that was intended to
    establish audit trails and ensure that real property additions, corrections, and
    disposals were accurately captured in both CEFMS and REMIS. In addition,
    USACE Memorandum, “Real Property Inventory/Reconciliation for CFO Act
    Responsibilities,” August 1, 1996, states that real property subsidiary records in
    REMIS must be reconciled annually (at a minimum) with the general ledger
    records for real property accounts. This control procedure is required to ensure
    that any real property additions, corrections, or disposals are accurately captured
    in REMIS and CEFMS.

    USACE inconsistently followed guidance to complete manual reconciliations.
    Only 1 of the 16 activities demonstrated they had periodically performed the
    manual reconciliation and could explain the differences between the two systems.
    Examples of these differences include data entry errors, total and partial disposals,
    and administrative cost activity recorded either in REMIS or CEFMS but not both
    systems. The reconciliation of total and partial disposals of land tracts and their
    related administrative costs is important because the disposal process is manual
    and requires parallel coordination between activity financial and real estate
    divisions. The types of errors identified during the current review indicate lack of
    management oversight, failure to implement the policy, and ineffective annual
    reconciliations.

    USACE needs to develop an integrated subsidiary ledger capability for CEFMS to
    ensure an audit trail exists from source documents to the financial statements, as
    agreed to in USACE comments on DoD Inspector General Audit Report
    D-2004-044, “Subsidiary Ledgers at the U.S. Army Corps of Engineers,”
    January 16, 2004. In addition, USACE should ensure that business processes are
    developed that will correct the inconsistent reporting and documentation of land
    assets and should develop internal control processes that provide periodic review
    to test land accounting transactions at the activity level.


                                          8
Ongoing Actions
        USACE has been receptive to recommendations made by DoD OIG in response to
        in-process reviews with management and site visits to activities included in our
        samples. Specifically regarding administrative cost and developing a subsidiary
        ledger capability, USACE management has issued information papers addressing
        real property issues such as the lack of supporting documentation for acquisition
        costs, reservoirs, and periodic reconciliation of records in CEFMS and REMIS.

        Representatives of the DoD OIG, USACE, and the Government Accountability
        Office met to determine possible alternatives that could validate the land
        administrative costs. The result was a Memorandum of Agreement signed by the
        Director of the Defense Financial Auditing Service for the DoD Inspector General
        and the Director of Resource Management at USACE titled, “Support for
        Recorded Book Cost of General Property, Plant and Equipment Assets,” June 9,
        2004. As part of the Memorandum of Agreement, USACE will obtain and
        provide to the DoD OIG copies of the reconciliation documents prepared by each
        of the USACE activities to convert financial records from the Corps of Engineers
        Management Information System to CEFMS. USACE will also reconstruct any
        FY 1994 through FY 1998 reconciliations that are missing, using the same
        process used to create the original spreadsheets. USACE will then annotate on
        the spreadsheets “non-original” and attest to the information and the methodology
        used to remake them. USACE will write off the recorded amounts or provide
        valid estimates for any conversion spreadsheets it cannot reconstruct. The
        DoD OIG land audit team will determine whether the reconciliation process for
        each USACE project is reasonable for acceptability as alternative supporting
        documentation for land administrative costs incurred before USACE converted to
        CEFMS. This will help USACE develop a baseline for land assets.


Conclusion
        Auditors could not rely on the land asset value presented in the USACE FYs 2002
        through 2004 financial statements. We were unable to validate administrative
        costs associated with getting land assets ready for their intended use because of
        the lack of appropriate supporting documentation. Administrative costs make up
        a material part8 of the total value of land assets in the USACE financial
        statements. We were able to complete existence and rights testing on the
        purchase price of land tracts and found the error rate to be below the materiality
        threshold. However, land tract purchase price comprises only that portion
        actually paid for land and does not contain administrative cost. Consequently, the
        land tract purchase price is not representative of the line item. Because we
        addressed USACE subsidiary ledgers in a separate report, we have not included
        specific recommendations here regarding the matter.



8
 Although we could not quantify the total population, USACE personnel estimated that administrative
costs make up at least 70 percent of total land cost on the financial statements.


                                                   9
Recommendations, Management Comments, and Audit
  Response
    We recommend that the Commander of the U.S. Army Corps of Engineers,
    Civil Works establish an oversight process that provides periodic reviews by
    Civil Works headquarters of land asset transactions at the activity level to
    include:

       1. Defining administrative costs and ensuring that all activities retain
          required supporting documentation for all costs associated with land
          acquisition.

       Management Comments: The Commander of the U.S. Army Corps of
       Engineers concurred and stated that USACE has developed procedures in
       EC 405-1-12, Chapter 16, Appendix D, to ensure all required supporting
       documentation for Property Plant and Equipment is retained.

       Audit Response: Management comments are partially responsive. The
       USACE developed procedures in EC 405-1-12, Chapter 16, Appendix D for
       field activities to retain supporting documentation of land asset values.
       However, the USACE did not address the overall recommendation that Army
       Corps of Engineers Headquarters establish an oversight process that provides
       periodic reviews of land asset transactions at the activity level. As explained
       in this report, Field activity implementation of Headquarters guidance was
       dependent on individual ability and interpretation of the guidance. As a result,
       we found diverse methods of record keeping at the various field activities
       which indicated that oversight was needed for consistent implementation of
       guidance. In addition, the EC 405-1-12, Chapter 16, Appendix D, misstated
       the retention period for land assets. National Archives and Records
       Administration is the authority that sets documentation retention, and it states
       that land records should be retained for the life of the asset plus 10 years. We
       request that U.S. Army Corps of Engineers Headquarters provide more
       specific details as to how they intend to establish an oversight process to
       monitor all the elements of the recommendations, and provide details relating
       specifically to retention of documentation to support costs associated with
       land acquisition.


       2. Applying appropriate guidance related to the retention of land
          records.

       Management Comments: The Commander of the U.S. Army Corps of
       Engineers concurred and stated that U.S. Army Corps of Engineers, Civil
       Works headquarters will update Information Paper Number 11, Land, to
       emphasize the need to ensure all land records are retained. Completion date
       for this action is March 31, 2005.

       Audit Response: Management comments are partially responsive. We agree
       that updating Information Paper 11 will emphasize the need to ensure all land
       records are retained. However, the Information Paper offers erroneous


                                        10
guidance for the retention period for land assets. National Archives and
Records Administration is the authority that sets retention periods for
documentation and it states that land records should be retained for the life of
the asset plus 10 years. We request that U.S. Army Corps of Engineers
Headquarters update Information Paper 11 to reflect the correct retention
period for documentation and specify an implementation date in response to
the final report.

3. Defining and consistently classifying reservoir costs.

Management Comments: The Commander of the U.S. Army Corps of
Engineers concurred and stated that USACE headquarters has developed
information paper Number 10, Real Property, directing USACE Districts to
transfer all reservoir costs from Buildings and Structures to Land and stated
that all USACE Districts have completed this action.

Audit Response: Management comments are responsive. However, the U.S.
Army Corps of Engineers Headquarters should review records coded as
reservoirs and provide documentation to the DoD IG showing that all directed
actions have been completed.

4. Identifying all donated land tracts and correcting donated land tract
   records by:

   a. Assigning a fair market value to donated land tracts that do not
   currently have a documented value, and

   b. Documenting fair market value for land tracts that have been
   assigned a value but have no documented valuation approach.

Management Comments: The Commander of the U.S. Army Corps of
Engineers concurred and stated USACE headquarters will update information
paper Number 11, Land, directing USACE Field Operation Activities to
review each donated land tract and ensure each is recorded at a fair market
value. In addition, USACE headquarters will ensure each land tract is
properly documented. Completion date for this action is March 31, 2005.

Audit Response: Management comments are partially responsive. The
Commander of the U.S. Army Corps of Engineers stated that the USACE
headquarters would ensure each land tract is properly documented, but did not
explain how the headquarters would provide that assurance. We request that
the U.S. Army Corps of Engineers Headquarters provide more specific details
as to how they will ensure each land tract is properly documented.

5. Proving the existence, rights and obligations, and valuation of land
tracts by:

a. Reconciling or assigning a documented value to the land if the REMIS
   paid-to-owner values do not match recorded deed or other
   appropriate cost, and



                                 11
b. Researching county records or appropriate authorities to obtain the
   required deeds or other supporting documentation if supporting
   documentation is not on hand to support REMIS values.

 Management Comments: The Commander of the U.S. Army Corps of
Engineers concurred and stated adhering to a recommendation by U.S. Army
Audit Agency, USACE consolidated all of its land tracts in CEFMS to the
project level. Therefore, they were unable to match supporting documentation
with any value found in REMIS because CEFMS is the system of record for
Land value found on the Civil Works Balance Sheet. However, USACE is
able and does agree to reconcile project land values to supporting
documentation as agreed to in the Memorandum of Agreement signed
between DoD OIG and USACE on June 6, 2004. In addition, USACE agrees
to research county records or appropriate authorities to obtain required
supporting documentation to support post-CEFMS values. Completion date
for this action is June 30, 2005.

Audit Response: Management comments are unclear and do not fully
address the recommendation. The comments indicate that USACE, adhering
to an audit recommendation from the Army Audit Agency, eliminated an audit
trail from the supporting documentation in REMIS to the summary records in
CEFMS. An audit trail is necessary for records to comply with generally
accepted accounting principles. Although the U.S. Army Corps of Engineers
Headquarters does not consider REMIS a subsidiary ledger, it is the only
detailed record of land acquisition retained by USACE that supports the direct
cost of land assets in CEFMS. In response to a prior DoD IG audit report,
“Subsidiary Ledgers at the U.S. Army Corps of Engineers” (D-2004-044) the
Commander, U. S. Army Corps of Engineers agreed that USACE would
generate and reconcile general ledger control accounts to their supporting
subsidiary data at the close of each accounting period and maintain a record of
the subsidiary ledgers as an audit trail. We request that the U.S. Army Corps
of Engineers identify the subsidiary ledger for land assets that provides
detailed support for the summary ledger, CEFMS, and provide details of how
reconciliation occurs between the two systems to ensure accurate financial
reporting of additions and disposals of land assets.


6. Identifying and recording the unrecorded disposals of land tracts.

Management Comments: The Commander of the U.S. Army Corps of
Engineers concurred and stated USACE headquarters will update information
paper Number 11, Land, directing USACE Districts to identify and record all
unrecorded disposals of land tracts by project. In addition, a process to
determine the proper adjustments will also be provided in the paper.
Completion date for this action is March 31, 2005.




                                12
Appendix A. Scope and Methodology
   Our initial audit objective was to determine whether the ending balance of land
   assets presented in the USACE, Civil Works, FY 2002 Civil Works Financial
   Statements could be relied on to establish the beginning balance in the USACE,
   Civil Works, FY 2003 Financial Statements. We expanded our scope to include
   DoD OIG analytical procedures and reviews of the current USACE business
   processes for issuing the FY 2004 and 2003 comparative consolidated financial
   statements. USACE reported $8.6 billion of land assets on their FY 2004
   financial statements.

   To perform substantive testing of land assets and determine the accuracy of data
   in the CEFMS database we determined that 40 District activities and 2 Division
   activities accounted for land assets. We selected a sample 16 activities that were
   representative of total land assets. Specific land tracts are identified in property
   identification numbers. We selected and reviewed a statistical sample of
   523 property identification numbers. See Appendix C for details related to the
   sample selection process. We also held meetings with USACE Headquarters
   resource management and real property personnel in Washington, D.C., in
   addition to the activities stated above. We visited or requested data calls from the
   activities listed in the following table.

             Activities Visited:                      Data Calls Requested:

   Baltimore, Maryland                        Chicago, Illinois

   Fort Worth, Texas                          Louisville, Kentucky

   Huntington, West Virginia                  Memphis, Tennessee

   Kansas City, Missouri                      Omaha, Nebraska

   Little Rock, Arkansas                      Rock Island, Illinois

   Pittsburgh, Pennsylvania                   Sacramento, California

   Portland, Oregon

   Seattle, Washington

   Tulsa, Oklahoma

   Wilmington, North Carolina


   Scope Limitations. We performed this review from December 2002 through
   October 2004 in accordance with generally accepted government auditing
   standards. Our scope was limited in that we did not include tests of management


                                        13
controls because USACE represented that it was ready for audit substantive
testing. In addition, we determined that $1.78 billion of the $2.35 billion in the
FY 2002 sample that made up administrative costs associated with acquisition of
land tracts were not supported with proper documentation. Therefore, we limited
our scope and judgmentally selected and reviewed administrative costs associated
with the 523 property identification numbers. Further, we eliminated
administrative costs from our statistical sample in order to determine if land tract
deeds did support USACE ownership, as stated on the financial statements.
During the reviews of the USACE FY 2004 Financial Statements we verified that
land administrative cost remained unsupported.

Specifically, we did not review land administrative costs associated with Power
Marketing Agencies, which comprise $2.3 billion of the $8.6 billion reported for
land assets in the USACE FY 2004 Financial Statements. Power Marketing
Agencies were included within the scope of another DoD OIG audit team’s
review. However, by the time we learned that the other review’s scope did not
extend to potential land issues, our audit timeframe did not permit us to expand
our scope to include such issues as they related to Power Marketing Agencies.

Additionally, we did not review the accounting for land assets related to USACE
projects primarily recorded in CEFMS, which became fully operational across all
USACE activities by 1999. This scope limitation did not affect the results of our
work for this project because the material amount of transactions involving land
assets occurred prior to FY 1999. We will address land asset transactions that
occurred after FY 1998 in a future project.

Completeness testing of judgmentally selected land tracts was limited because we
could not trace source documents to recorded entries in CEFMS. Real property
transactions are recorded in CEFMS at the project ID level; CEFMS does not
record real property transactions at the individual land tract level. Project IDs
contain many individual land tracts. Our completeness testing consisted of
tracing deeds to recorded entries in REMIS.

Use of Computer-Processed Data. We used computer-processed data from
CEFMS and REMIS for this audit; however, we could not confirm the reliability
of land assets data. The lack of reliable data did not permit us to establish the
FY 2003 or 2004 beginning balance for land assets. Other reports on USACE
system general and application controls have revealed weaknesses in CEFMS.
Therefore, we selected our sample based on a high risk of errors in the CEFMS
data.

Use of Technical Assistance. We obtained assistance from the Quantitative
Methods Division in the DoD OIG to determine a statistical sampling plan and
calculate the statistical projections. See Appendix C for the statistical sampling
methodology.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the DoD Financial Management high-risk area.




                                     14
Appendix B. Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO), the
    DoD Office of Inspector General (DoD OIG), and the U.S. Army Audit Agency
    have issued multiple reports related to land assets. Unrestricted GAO reports can
    be accessed over the Internet at www.gao.gov. Unrestricted DoD IG reports can
    be accessed at www.dodig.mil/audit/reports. Unrestricted U.S. Army Audit
    Agency reports can be accessed at www.army.mil/reports.html, which is
    accessible on the extranet to military domains and GAO only.


GAO
    Report No. GAO-01-89, “Financial Management Significant Weaknesses in
    Corps of Engineers' Computer Controls,” October 2000


DoD IG
    DoD IG Report No. D-2004-044, “Subsidiary Ledgers at the U.S. Army Corps of
    Engineers,” January 16, 2004

    DoD IG Memorandum, “Report on the U.S. Army Corps of Engineers, Civil
    Works, Fiscal Year 2001 Financial Statements,” February 20, 2002


U.S. Army Audit Agency (AAA)
    Report No. AA02-142, “Fiscal Year 2001 Financial Statements, U.S. Army Corps
    of Engineers, Civil Works,” February 8, 2002

    Report No. AA01-187, “Fiscal Year 2000 Financial Statements, U.S. Army Corps
    of Engineers, Civil Works,” February 14, 2001

    Report No. AA00-186, “Fiscal Year 1999 Financial Statements, U.S. Army Corps
    of Engineers, Civil Works,” February 18, 2000




                                        15
Appendix C. Statistical Sampling Methodology

Sampling Plan
    Sampling Purpose. The statisticians identified items of land assets for review
    and estimated the dollar differences between the audited and reported book value
    of the land assets, specifically, individual land tracts.

    Population. The tested population contained 2,320 items representing
    $8,073,446,523 of land, intangible, and leasehold items drawn from the
    FY 2002 CEFMS database. Leasehold items, representing $23,150,754 and
    consisting of seven Property IDs were removed from the sample leaving
    2,313 items with a value of $8,050,295,769 from which to draw the sample.

    Sample Design. The project used a three-stage sample design. The first stage
    used was a “probability proportional to size” design by activity; the second stage
    stratified the design by Property ID; and the third stage stratified design by Tract
    Number.

    At the first stage, we determined that a sample size of 40 activities was
    appropriate, based on information from prior audit work and our professional
    judgment. The activities were randomly selected with replacement, and with
    selection probabilities based on reported book value dollars using the random
    number capabilities in the statistical analysis software to generate random
    numbers between 0 and 8,050,295,769, which correspond to the dollar value
    range of the population. The sample of 40 activities was selected with
    replacement and resulted in 16 unique activities.

    After drawing the first stage sample, the audit team decided to remove power
    marketing asset and known administrative cost items from the population. This
    decision reduced the total book value to $5,982,607,538 and total Property IDs to
    2,077. Because the activities were selected probability proportional to size based
    on a population of $8,050,295,769, the population (as well as the original dollar
    totals in each activity) was not changed to preserve the validity of the sample
    weights; only the efficiency of the sampling process was affected.

    For the second stage we used a stratified design by Property ID that consisted of
    20 Property IDs for each activity selected at the first stage. The first stratum in
    the second stage is a census of the five Property IDs with the highest dollar book
    value. The second stratum consisted of Property IDs selected by simple random
    selection without replacement from the remaining non-census Property IDs. The
    non-census Property IDs were randomized using the random number capabilities
    of Microsoft Excel 2000 (9.0). We selected 787 Property IDs with 523 of those
    sample IDs being unique.

    For the third stage we stratified the design by tract number within sampled
    Property IDs. The first stratum was a census of the top five REMIS book dollar
    value tracts. The second stratum consisted of 15 non-census items selected by



                                         16
simple random selection without replacement, using the random number
capabilities of Microsoft Excel 2000 (9.0). Our final sample consisted of
8,332 unique tracts.

The USACE Baltimore activity sample consisted of 20 Property IDs, of which
11 had eight or fewer tracts. A census of these 11 Property IDs was performed.
The remaining nine Property IDs were sampled using simple random selection
without replacement. We selected a total of 30 census tracts and 250 randomly
selected tracts. The data was in hard copy form (by Property IDs) with tracts
itemized below each Property ID. The random sample tracts were selected by
generating random numbers using a program written in the statistical analysis
software to randomly select items as a combination of page number and line
number on the page.

The USACE Chicago activity sample consisted of 7 Property IDs and 20 tract
items representing the total of all Property IDs and tract items within that activity.
The total dollar value of land assets for the USACE Chicago activity was
$357,936. Because of the immateriality of the dollar amount and number of
Property IDs and tracts, and the fact that there was limited documentation for land
assets available from that office, we treated the Chicago activity differently. In
computing the first stage statistical projections we assumed the Chicago activity
to have zero sample mean errors. However, in order to include the actual errors
the auditors found in Chicago activity, we added back these errors to the
calculated statistical projections for the other activities.

We removed all known administrative costs associated with a Property ID or tract
from the population. However, when administrative costs were later discovered
in the sample that had not been identified earlier, we treated the item as a zero
error. We augmented the sample by adding the next item in the random selection
list.

Sample Results. Based on the audit results, we calculated the following
statistical projections for the land tract costs included in the USACE FY 2002
financial statements.

                         95 Percent Confidence Interval
                         Lower Bound        Point Estimate       Upper Bound

           Errors        ($47,898,912)        $21,727,809        $91,354,529
     *Unsupported          $13,483,404        $76,062,814       $138,642,224

*The audit team determined the unsupported transactions sample results for the
Chicago activity were atypical, and requested they not be included in calculating
the statistical projections. Based on their judgment for non-quantitative reasons
we did not include the $764,217 of total unsupported errors found at the Chicago
activity in the calculated statistical projection. We added back the actual error
amount of $764,217 to the calculated statistical projection of $75,298,597 to
arrive at the final projection of $76,062,814.



                                     17
We are 95 percent confident that the total amount in error in land transactions is
between $[47,898,912] and $91,354,529, and the total unsupported amount in
land transactions is between $13,483,404 and $138,642,224.




                                     18
Appendix D. Sample Results
   During our sample review of FY 2002 data for 16 USACE activities, we visited
   10 sites and requested data calls from the remaining six sites. The tables below
   show the results of our work related to land administrative costs, land tract
   acquisition costs, and donated land tracts.

   Table D-1 shows total administrative costs identified during our review, the
   amount of unsupported administrative costs, and the percentage of the
   unsupported total, by activity. We could not validate $1.8 billion in land
   administrative costs because USACE did not retain supporting documentation.

          Table D-1. Unsupported Administrative Costs – by Activity
                        Total         Unsupported             Percent
      Activity       Admin Costs      Admin Costs          Unsupported

    Baltimore         $   177,467,295        $    12,060,209              6.8
    Chicago                         0                      0               -
    Fort Worth            234,981,195            149,921,748             63.8
    Huntington            273,417,345            138,248,371             50.6
    Kansas City           475,718,515            475,718,515            100.0
    Little Rock           126,313,054            126,313,054            100.0
    Louisville            151,202,216            151,202,216            100.0
    Memphis                31,686,387             27,243,726             86.0
    Omaha                  32,039,391             32,039,391            100.0
    Pittsburgh            289,392,398            132,602,398             45.8
    Portland               14,872,709             14,872,709            100.0
    Rock Island           101,297,076            101,297,076            100.0
    Sacramento             28,368,319             28,368,319            100.0
    Seattle                26,126,290              6,367,102             24.4
    Tulsa                 293,270,045            293,270,045            100.0
    Wilmington             91,001,924             91,001,924            100.0

       Total          $ 2,347,154,159        $ 1,780,526,803             75.9




                                        19
        Table D-2 shows the total number of donated land tracts identified in our review,
        donated tracts that were not valued at fair market value, and undocumented and
        documented tracts that were valued at fair market value. We identified only
        68 out of 540 donated land tracts that were both given a fair market value and
        appropriately documented.



                   Table D-2. Donated Land Tracts by Activity
                                    Tracts               Tracts Valued
                                  Not Valued         At Fair Market Value
                     Total          At Fair
  Activity       Donated Tracts Market Value Undocumented Documented

Baltimore*              41                   1                 40                 0
Chicago                  16                 11                  5                 0
Fort Worth*             32                   0                 32                 0
Huntington*               4                  4                  0                 0
Kansas City*             77                 77                  0                 0
Little Rock              18                  2                 16                 0
Louisville              26                   0                 26                 0
Memphis                   0                  0                  0                 0
Omaha                   14                   9                  5                 0
Pittsburgh*               2                  1                  1                 0
Portland*               73                  73                  0                 0
Rock Island              19                 10                  9                 0
Sacramento              66                   7                 57                 2
Seattle*                 16                  5                  0                11
Tulsa**                   0                  0                  0                 0
Wilmington*             136                  0                 81                55

Total                   540                200                272                68

* means actual site visit
** means actual site visit and subsequent data call




                                            20
      Table D-3 shows the total number of land tracts identified during our review, land
      tracts with missing deeds, the book value of land tracts with missing deeds, tracts
      with data entry errors, and the absolute variance between audited and book values
      of land tracts with data entry errors, by activity. We reviewed 8,313 land tracts
      with a reported value of $456 million. We identified 486 land tracts valued at
      $9,776,801 with missing deeds and 590 land tracts with variances totaling
      $15,878,353.

             Table D-3. Land Tracts w/ Missing Deeds and Data Entry Errors
                                      by Activity
                               Tracts      Book Value        Tracts
                   Total        with       of Tracts w/      w/ Data
                  Tracts       Missing       Missing          Entry          Absolute
  Activity       Reviewed      Deeds          Deeds          Errors      Variance of Errors

Baltimore           280             1      $          50        41       $          27,811
Chicago              20             7            311,384         9                 357,934
Fort Worth          843            41            482,403        32                  66,117
Huntington          538             5            160,995        18               1,063,578
Kansas City       1,074            35                 35        11                 207,775
Little Rock         535            33                175        63                 131,578
Louisville          441            20             54,155        59               7,714,063
Memphis             237             0                  0        29                 266,410
Omaha               529            19             33,245        34                 758,779
Pittsburgh          663            63          1,058,720        74               2,856,762
Portland            295             9                155        15                 270,491
Rock Island         231            18             17,682        18                  25,790
Sacramento          197             0                  0         7                  39,186
Seattle             204             0                  0        15                 161,810
Tulsa             1,695           233          7,652,905        57               1,447,617
Wilmington          531             2              4,897       108                 482,652

   Total          8,313           486       $9,776,801         590       $     15,878,353




                                          21
Appendix E. Report Distribution

Office of the Secretary of Defense
Deputy Chief Financial Officer
Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Commander, U.S. Army Corps of Engineers
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Civil Works)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Deputy Associate Director, Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services




                                            22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        23
Department of the Army Comments




                    25
26
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below:

Paul J. Granetto
Barbara A. Sauls
David F. Vincent
Delpha W. Martin
Michael T. Hill
Walter J. Gaich
James F. Friel
Ronald L. Smith
James H. Fleischman
Shaneen J. Beamish
Joshua H. Hickman
Todd L. Truax
Lily Y. Chen
Alisha Eze
Wilfredo Romero-Torres
Theresa L. Seidlinger
Calvin G. Hursey
Catherine Bird
Frank Sonsini
Lusk F. Penn
James Hartman
